12/27/05       TUE 07:58 FAX 423 241 3897                   OIG                              -**   HQ                     @]002

           DOE F 1325.8
           (08-93)
           United States Government                                                                Departmen         of Energy


       memorandum
                  DATE:      December 20, 2005                      Audit Report Number: OAS-L-06-03
              REPLY TO
              A1TN OF;      IG-36 (A05SR025)
             SUBJECT:       Audit of "Defense Waste Processing Facility Operations at the Savannah
                                                                                                   River
                            Site"

                    TO:    Jeffrey M. Allison, Manager, Savannah River Operations Office

                           INTRODUCTION AND OBJECTIVE

                           The Department of Energy's (Department) Savannah River Site stores
                           approximately 36 million gallons of liquid, high-level radioactive waste
                                                                                                        in 49
                           underground waste storage tanks. The contents of the waste tanks
                                                                                                 are broadly
                           characterized as either "sludge waste" or "salt waste". Sludge waste
                                                                                                   is insoluble
                           and settles to the bottom of a waste tank, beneath a layer of liquid
                                                                                                supernate. Salt
                           waste is soluble and is dissolved in the liquid.

                           The Defense Waste Processing Facility (DWPF) is designed to
                                                                                               treat both forms
                           of waste and package them for permanent disposition. Through
                                                                                                a complex
                          sequence of carefully controlled chemical reactions in the DWPF,
                                                                                                   the waste is
                          blended with glass frit and vitrified into a borosilicate glass form. The
                                                                                                         resulting
                          molten glass is poured into stainless steel canisters where
                                                                                        it solidifies,
                          immobilizing the radioactive waste within the glass structure. The
                                                                                                    canisters are
                          then ready to be stored pending shipment to a Federal Repository
                                                                                                  for permanent
                          storage. The DWPF, which began radioactive operations in March
                                                                                                    1996, has an
                          annual operating cost of about $100 million, and is presently treating
                                                                                                       only the
                          sludge waste stored in the tanks. Due to the significant cost associated
                                                                                                         with
                          operating the DWPF, we conducted this audit to determine whether
                                                                                                     the
                          Department is maximizing the amount of sludge waste encapsulated
                                                                                                      in each
                          canister produced in the DWPF.

                          CONCLUSIONS AND OBSERVATIONS

                           We dctermined that the Department has made progress towards
                                                                                           maximizing the
                          amount of sludge waste encapsulated in each canister produced
                                                                                           in the DWPF.
                           Since beginning operations in March 1996, the sludge waste
                                                                                        loading per canister
                          has increased from 25 percent to approximately 38 percent. Further,
                                                                                                 the fill level
                          for each canister has increased from 96 inches to 100 inches.
                                                                                         Also, the
                          Department is taking additional measures to optimize the amount
                                                                                             of sludge waste
                          loading per canister. For example:
12/27/05   TUE 07:58 FAX 423 241 3897              OIG                            -+*-   HQ                 Q1003


                         * Prior to processing each new batch of sludge feed in the DWPF,
                                                                                              the
                           Savannah River National Laboratory conducts an independent study
                                                                                                   to
                           identify the frit composition that should be used in order to obtain
                                                                                                the
                           optimum waste loading for the new batch; and,

                        *   The Department has a contractual incentive for Westinghouse Savannah
                            River Company (Westinghouse) to increase the amount of actual sludge
                            waste encapsulated in the canisters produced in the DWPF.

                     While the Department is making progress in maximizing the amount
                                                                                            of sludge
                    waste encapsulated in each canister, there is uncertainty associated
                                                                                         with the
                    amount of sludge waste that still requires treatment. In fact, since
                                                                                         March 2002
                    the Department has revised its estimate of the total number of canisters
                                                                                               expected
                    to be completed in the DWPF three times. For example, in March 2002,
                                                                                                 the
                    Department estimated that it would produce a total of about 6,000 DWPF
                    canisters and complete operations no later than 2027. In December of the same
                    year, the Department estimated that it would produce a total of about
                                                                                            5 000
                    canisters and complete operations by 2018. In September 2005, the Department's
                   estimate increased to about 5,800 total canisters with a 2022 completion
                                                                                                date.
                    While some of the fluctuation was attributable to waste loading
                                                                                      addressed above,
                   there is uncertainty regarding the amount of sludge that remains to be
                                                                                            treated at
                   the Savannah River Site. This information is critical in order to establish
                                                                                                 a viable
                   production and operation schedule for the DWPF and to understand
                                                                                          the impact on
                   future budgets.

                   The Department has acknowledged that differences exist in sludge estimates
                   and has initiated efforts to determine the quantity of sludge treated,
                                                                                          as well
                   as the amount of sludge remaining. However, these efforts were put
                                                                                           on hold
                   until recently to support higher priority work. While we do not anticipate
                   that the uncertainty of updated sludge amounts discussed above will
                                                                                           have an
                   immediate impact on DWPF operations, we suggest that the Department
                   task Westinghouse to update the current sludge estimate and establish
                   expected deliverable and completion dates for this task.

                   SCOPE AND METHODOLOGY

                  The audit was performed from May through November 2005, at
                                                                                    the
                  Department's Savannah River Site in Aiken, South Carolina. The scope
                                                                                             of
                  the audit included a review of actual and planned waste loading for
                                                                                        sludge
                  waste encapsulated in each canister produced in the DWPF from
                                                                                     1996
                  through the end of the project, which is currently planned for 2022.
                                                                                         To
                  accomplish the audit objective, we:

                        *Obtained and reviewed documents relating to actual and planned
                         waste loadings for sludge waste encapsulated in each canister
                         produced in the DWPF;




                                                   2
12/27/05   TUE 07:59 FAX 423 241 3897              OIG                           *.* uU              iUU4




                         *   Reviewed the Department's current contract with Westinghouse to
                             determine whether performance measures were included to increase
                             the amount of actual sludge waste encapsulated in the canisters
                             produced in the DWPF; and

                        *    Interviewed key Savannah River Operations Office and
                             Westinghouse personnel regarding the amount of sludge waste that
                             still requires treatment in the DWPF.

                    The audit was performed in accordance with generally accepted Government
                    auditing standards for performance audits and included tests of internal
                    controls and compliance with laws and regulations to the extent necessary to
                    satisfy the audit objective. Accordingly, we assessed performance ieasures
                    established under the Government Performanceand Results Act of 1993 and
                    found that the Department established performance measures related to
                    maximizing the amount of sludge waste encapsulated in each canister
                    produced in the DWPF. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that may have
                    existed at the time of our audit. In performing this audit, we did not rely on
                    computer-processed data to accomplish the audit objective. Therefore, it
                    was not necessary to conduct an assessment of the reliability of.this data.
                    The Savannah River Operations Office waived the exit conference.

                   We appreciate the cooperation of your staff during our review. Because no
                   formal recommendations are being made in this report, a formal response is
                   not required.



                                                 Fredrick G. Pieper, Division Director
                                                 Energy, Science and Environmental
                                                   Audits Division
                                                 Office of Inspector General

                   cc: Chiefof Staff
                       Team Leader, Audit Liaison Team, CF-1.2
                       Audit Liaison, Office of Environmental Management, EM-33
                       Audit Liaison, Savannah River Operations Office




                                                   3
